Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

November 19, 2019
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Ayestas v. Davis, No. 19-569
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent respectfully moves for an extension of the time for filing a response to the petition for writ of certiorari in Ayestas v.
Davis, No. 19-569.
The Petition was filed in this Court on October 29, 2019, and placed on the docket
October 30, 2019. A response to the Petition is currently due on November 29, 2019.
A 45-day extension, until January 13, 2020, is needed because undersigned counsel
only recently returned to work from paternity leave and the press of business from
numerous, complex matters with deadlines near the current deadline require significant time and attention from the undersigned counsel and other counsel assisting
with this matter:
• Texas A & M University v. Doe, No. 10-19-00057-CV (Tex. App.—Waco): Oral
argument on November 14, 2019.
• Jones v. Davis, 19-6465 (U.S.): Respondent’s brief in opposition due November 30, 2019.
• Nettles v. GTECH Corporation, No. 17-1010: Oral argument on December 3,
2019.
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Scott S. Harris
November 19, 2019
Page 2
• Banister v. Davis, No. 18-6943 (U.S.): Oral argument on December 4, 2019.
• State v. Signal Drilling, LLC, No. ____ (Tex.): Petition for review due December 14, 2019.
• Bailey v. Smith, No. 19-0695 (Tex.): Respondent’s brief in opposition due December 16, 2019.
• Brackeen v. Bernhardt, No. 18-11479 (5th Cir.): en banc supplemental brief due
January 7, 2019.
In addition, counsel will be out of the office for the Thanksgiving and Christmas holidays.
No prejudice would arise from the requested extension, and the Petitioner does not
oppose this extension.
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of January 13, 2019.
Sincerely,
/s/ Kyle D. Hawkins
KYLE D. HAWKINS
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
kyle.hawkins@oag.texas.gov
Counsel for Respondent Lorie Davis
cc:

Meaghan Elizabeth McLaine VerGow (Counsel for Petitioner)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

